No. 19-123

 

 

IN THE

Supreme Court of the United States

SHARONELL FULTON, ET AL.,

Petitioners,
Vv.

CITY OF PHILADELPHIA, ET AL.,
Respondents.

On Writ Of Certiorari To
The United States Court of Appeals
For The Third Circuit

BRIEF OF ADL (ANTI-DEFAMATION LEAGUE) AND
OTHER ORGANIZATIONS AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief and appendix
contains 7,456 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
